HHS/OIG, Audit -"Review of Medicaid Claims Made By New Jersey for Residents of Institutions for Mental Diseases
Who Were Under the Age of 22,"(A-02-03-01028)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Claims Made By New Jersey for Residents of Institutions for Mental Diseases Who Were Under the
Age of 22," (A-02-03-01028)
October 20, 2004
Complete
Text of Report is available in PDF format (649 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if controls were in place to preclude New Jersey from claiming Federal Medicaid
funds for all medical services, except inpatient psychiatric services, provided to institution for mental diseases (IMD)
residents under the age of 21 and, in certain instances, under the age of 22.  We found that contrary to Federal requirements,
New Jersey did not have controls to prevent medical claims for residents of private and county-operated IMDs and that its
controls for residents of State-operated IMDs were not always effective.  During our July 1, 1997 through June 30,
2001-audit period, we estimated that New Jersey improperly claimed $848,374 in Federal Medicaid funds.  We recommended
that New Jersey: (1) refund $848,374 to the Federal Government, (2) implement controls to prevent Federal claims for medical
services provided to under-22-year-old IMD residents of private and county-operated IMDs, (3) strengthen its procedures
to prevent Federal claims for medical services provided to under-22-year-old IMD residents of State-operated IMDs, and
(4) identify and refund to the Federal Government any improper funds claimed for periods after our audit period.  New
Jersey officials concurred with our findings and recommendations.